INTERNATIONAL TRADE
ADMINISTRATION
U.S. Export Assistance
Centers Could Improve
Their Delivery of Client
Services and Cost
Recovery Efforts




FINAL REPORT NO. OIG-13-010-I
NOVEMBER 30, 2012



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                   Office of Inspector General
                                                   Washington, D.C. 20230




 November 30, 20 12

 MEMORANDUM FOR:              Ambassador Charles A. Ford 

                              Acting Assistant Secretary for Trade Promotion and 

                               Director General of the U.S. & Foreign Commercial Service 


                              Antwaun Griffin
                              Deputy Assistant Secretary for Domestic Operations
                              U.S. & Foreign Commercial Service


FROM:                         Ron Prevost    ~~                           

                              Assistant Inspector General for Economic and 

                               Statistical Program Assessment 


SUBJECT:                      U.S. Export Assistance Centers Could Improve Their Delivery
                                of Client Services and Cost Recovery Efforts
                              Final Report No. OIG-13-0 I0-1

Attached is the final report on our evaluation of the U.S. & Foreign Commercial Service
(US&FCS) Export Assistance Centers (USEACs). This evaluation, part of the OIG's fiscal year
20 12 audit plan, sought to (I) evaluate whether CS's allocation of domestic resources meets its
mission and goals, (2) assess CS's level of cost recovery, and (3) determine the extent to which
the level of coordination between USEACs and its federal and nonfederal partners is sufficient
to meet Administration priorities with respect to the National Export Initiative (NEI).

In the area of resource allocation, we found administrative tasks limit trade specialists'
performance of export promotion duties; USEACs with location and performance issues
consume CS's limited resources; and some USEAC initiated services warranting a response
from overseas posts go unfulfilled. With respect to cost recovery, CS's fee schedule is
outdated, inaccurate, and does not include all recoverable costs; in addition, certain internal
controls are deficient. Finally, in the area of coordination: trade specialists reported that CS
actions to implement the NEI have had a limited effect on collaboration, guidance and training
to enhance collaboration is inadequate, and collaboration between USEACs and their partners
is hampered by restrictions on sharing client information.

W here appropriate, we have modified this final report based on your response to our draft
report and subsequent conversations. The formal International Trade Administration (ITA)
response is included as appendix F. (We summarized your response, reflecting subsequent
conversations with your staff, and OIG comments, starting on page 19.) The final report will be
posted on the OIG's website pursuant to section 8L of the Inspector General Act of 1978, as
amended.
In accordance with Departmental Administrative Order 213-2, please submit to us within 60
calendar days of the date of this memorandum an action plan that responds to the
recommendations in this report including an estimate of cost savings resulting from your
proposed approach to decrease trade specialist administrative burdens. We thank CS personnel
for the assistance and courtesies extended to my staff during the review. If you have any further
questions or comments about the report, please contact Carol Rice, Division Director, at
(202) 482-6020, or Eleazar Velazquez, Program Manager, at (202) 482-0744.

Attachment

cc: 	   Francisco Sanchez, Under Secretary of Commerce for International Trade
        Daniel O'Brien, Acting National Director, US&FCS
        Pat Kirwan, Director, Trade Promotion Coordinating Committee, US&FCS
        Debra Delay, Director, Strategic Analysis and Policy, US&FCS
        Justin Guz, Audit Liaison, ITA
        Chris Christov, Audit Liaison, US&FCS
                                                Report In Brief                                     N OV E MB E R 3 0 , 2 0 1 2


                                       INTERNATIONAL TRADE ADMINISTRATION
Background
                                       U.S. Export Assistance Centers Could Improve Their
The United States & Foreign Com-
mercial Service (the Commercial        Delivery of Client Services and Cost Recovery Efforts
Service, or CS) within the Depart-
ment’s International Trade Admini-     OIG-13-010-I
stration (ITA) helps (a) promote
the export of goods and services       WHAT WE FOUND
by small- and medium-sized U.S.        CS’ Allocation of Resources Is Not Optimal. A significant amount of specialists’ time is spent
companies and (b) enhance U.S.         performing administrative tasks that prevent them from performing more substantive client-
government collaboration and co-       related services. Also, USEACs with location and performance issues consume CS’s limited
ordination on federal export pro-      resources. Finally, approximately 20 percent of USEAC-initiated services go unfulfilled because
motion efforts.                        overseas posts are unable to perform them.
The CS Office of Domestic Opera-
tions employs around 350 staff,        CS’ Cost Recovery Model and Certain Internal Financial Controls Have Weaknesses. CS’s current model
most of whom are trade specialists.    for recovering costs through fees for its client services is based on outdated information, cannot
This domestic unit operates 107        accurately track the time required to perform services, and does not account for all costs
field offices, known as U.S. Export    associated with providing those services. We also found deficient internal controls related to the
Assistance Centers (USEACs)            handling of check payments for client services and the reconciliation of CS’s accounts with the
located across 8 networks              Department’s.
nationwide.
                                       Survey Respondents Reported That CS Actions to Implement NEI Reportedly Have Had a Limited Effect
USEACs enter into contracts, re-       on USEAC Collaboration with Partners and Guidance to Enhance Collaboration Is Inadequate. According
ferred to as participation agree-      to trade specialists, the NEI has not significantly affected the outcomes of USEAC collaboration
ments (PAs), with companies and        with partners. Further, trade specialists surveyed reported insufficient guidance on related
work closely with overseas CS staff    initiatives and lack of participation in relevant training . Finally, collaboration between USEACs and
to deliver services. Overseas CS
                                       their partners is hampered by restrictions on sharing client information.
staff set up interviews with foreign
buyers, compile financial reports on
                                       WHAT WE RECOMMEND
foreign companies, and screen for-
eign business contacts for U.S. com-   We recommend the Acting Assistant Secretary for Export Promotion and Director General
panies. A CS service that results in   of the U.S. & Foreign Commercial Service:
an actual export by a U.S. company
is recorded as an “export success,”    1. 	 Develop strategies for minimizing the administrative duties of trade specialists.
which is the organization’s primary    2. 	 Upgrade or replace the current Client Tracking System.
performance measure.                   3. 	 Determine why some USEACs are underperforming and take corrective action.
                                       4.	 Track overseas posts that are unable to deliver adequate services and use the tracking tool to
Why We Did This Review                      provide estimated service delivery times to clients based on post performance and service type.
CS is a key player in the National     5. 	 Standardize the review process for the fee schedule to ensure biennial updates.
Export Initiative (NEI), the Admini-   6. 	 Ensure that surveys used to determine user fees are methodologically sound and sample
stration’s plan to double U.S. ex-
ports by the end of 2014 over 2009
                                            participation agreements for client services to validate the survey results.
levels. The NEI calls on more than a   7. 	 Analyze and document the methodology for estimating overhead costs and include appropriate
dozen federal agencies and offices          costs in the fee schedule to approximate full-cost recovery.
to help U.S. companies increase        8.	 Develop (a) formal policies prohibiting trade specialists from handling checks and (b) appropriate
their exports and create jobs. This         internal controls for check payments, consistent with those in place for credit card payments.
initiative was announced by the
                                       9. 	 Create official policies for account reconciliation, providing second-party review of
President during the 2010 State of
the Union address and promulgated           reconciliation activities and guidance for corrective action.
by executive order.                    10. Determine why guidance on collaboration is not effectively communicated to trade specialists
Our review sought to (1) evaluate           in the field and take corrective action.
whether CS’s allocation of domestic    11. Develop guidance on how to incorporate GAO practices for enhancing collaboration to
resources meets its mission and             structure partnerships to add value in achieving the USEACs’ mission.
goals, (2) assess CS’s level of cost   12. Develop and provide training to USEAC and partner staff on collaboration strategies and
recovery, and (3) determine the
extent to which the level of coordi-       techniques.
nation between USEACs and their        13. Request expanded Trade Promotion Coordinating Committee Trade Officer Training
federal and nonfederal partners is         with a web-based alternative available to all domestic trade specialists.
sufficient to meet Administration      14. Explore the possibility of requiring CS clients to waive confidentiality, in whole or in part,
priorities with respect to the NEI.
                                           as a condition for receiving services.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................4
 
    I.  Commercial Service’s Allocation of Resources Is Not Optimal..................................................4
 
       A.  Administrative tasks limit trade specialists’ performance of export promotion duties......4
 
       B.  USEACs with location and performance issues consume CS’s limited resources ...............6
 
       C.  Some USEAC-initiated services that warrant a response go unfulfilled after referral to 

           overseas offices....................................................................................................................................7
 
    II.  Commercial Service’s Cost Recovery Model and Certain Internal Financial Controls 

         Have Weaknesses ..................................................................................................................................8
 
       A.  CS’s fee schedule is outdated, inaccurate, and does not include all recoverable costs ......9
 
       B.  Certain internal controls for processing and reconciling client transactions 

           are deficient ....................................................................................................................................... 11
 
    III.  Survey Respondents Reported That CS Actions to Implement the National Export 

          Initiative Have Had a Limited Effect on USEAC Collaboration with Partners and 

          Guidance to Enhance Collaboration is Inadequate ...................................................................... 14
 
       A.  Trade specialists report the National Export Initiative has had a limited effect on 

           collaboration ..................................................................................................................................... 14
 
       B.  Trade specialist guidance and training on enhancing collaboration is inadequate ............. 16
 
       C.  Collaboration between USEACs and their partners is hampered by restrictions on 

           sharing client information ............................................................................................................... 17
 
Summary of Agency Response and OIG Comments............................................................................. 19
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 22
 
Appendix B: Quantitative Methodology ................................................................................................... 24
 
Appendix C: Monetary Benefits ................................................................................................................. 26
 
Appendix D: Survey Methodology............................................................................................................. 27
 
Appendix E: Export Promotion Cabinet Recommendations Related to Collaboration ................ 30
 
Appendix F: Agency Response .................................................................................................................... 33
 


                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934 





 



FINAL REPORT NO. OIG-13-010-I
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL


Introduction
The United States & Foreign Commercial Service (hereafter, referred to as the Commercial
Service, or CS) is one of four major business units within the Department’s International Trade
Administration (ITA). Established in 1980 and headed by the Assistant Secretary for Trade
Promotion and Director General of the U.S. & Foreign Commercial Service, CS helps (a)
promote the export of goods and services by small- and medium-sized U.S. companies and
(b) enhance U.S. government collaboration and coordination on federal export promotion
efforts. CS is divided into two primary units: its Office of International Operations and Office of
Domestic Operations.

In FY 2012, CS received $270 million in appropriations, of which more than $9 million is
derived from CS charging user fees for services it provides to U.S. exporters, to support 1,381
positions. The Office of International Operations received $175 million that support a total of
943 commercial officers and locally engaged staff stationed overseas at 117 offices in 73
countries.1 The Office of Domestic Operations received $48 million and employed a total of
354 staff, most of whom are trade specialists (who are the focus of section I of this report’s
“Findings and Recommendations”).2 This domestic unit operates 107 field offices, known as U.S.
Export Assistance Centers (USEACs) located across 8 networks nationwide (see figure 1, next
page). Each USEAC is headed by a director, and each network is headed by a network director
who works out of a USEAC office.3




                                                            
1
  State Department staff provides services on behalf of CS at 57 offices referred to as “partner posts” in another
57 countries.
2
  The preceding two figures exclude CS headquarters costs and personnel, as well as costs for ITA centralized
services.
3
  Network offices are located in Atlanta; Boston; Chicago; Cleveland; Denver; Irvine, California; Philadelphia; and
San Jose, California.


FINAL REPORT NO. OIG-13-010-I                                                                                         1
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

                        Figure 1. Commercial Service USEAC Networks




        Source: U.S. Commercial Service

In addition to providing general trade information
and data to the public, trade specialists nationwide           Standardized CS Services 

offer a number of fee-based, standardized services             Offered to U.S. Exporters 

to U.S. companies seeking to export their goods          Gold Key Service—targeted business
(see box at right). They also offer fee-based            meetings with pre-screened foreign buyers
customized services such as promoting a U.S.             International Company Profile—a
company’s exports, performing market research,           detailed financial report on a foreign
leading foreign trade missions into the United States,   company
and sponsoring overseas trade events. USEACs             International Partner Search—a
                                                         prequalified list of international business
enter into contracts, referred to as participation
                                                         contacts
agreements (PAs), with companies and work closely
                                                         Featured U.S. Exporter—overseas
with overseas CS staff to deliver services. Overseas     website promotion of U.S. companies
CS staff carries out tasks such as setting up            targeted to foreign buyers
interviews with foreign buyers, compiling financial      Business Service Provider—a directory
reports on foreign companies, and screening foreign      to help U.S. companies identify domestic
business contacts for U.S. companies. A CS service       professional service providers to assist them
that results in an actual export by a U.S. company is    with an export transaction
recorded as an “export success,” which is the            Source: OIG analysis of CS information
organization’s primary performance measure.

Specialists also coordinate and collaborate with other federal government agencies, such as the
Small Business Administration (SBA) and Export–Import Bank, as well as state and local
partners to assist U.S. companies export—whether as new exporters or exporters wishing to


FINAL REPORT NO. OIG-13-010-I                                                                            2
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL

expand their business to new international markets. CS is a key player in the National Export
Initiative (NEI), the Administration’s plan to strengthen federal export promotion activities to
double U.S. exports by the end of 2014 over 2009 levels. The NEI calls on more than a dozen
                                              federal agencies and offices to work together to
                                              advance eight priorities (see box at left) to help U.S.
        National Export Initiative’s 

                                              companies increase their exports and create jobs.
            Eight Priority Areas

                                              This initiative was announced by the President
   	 Export by small- and medium-sized 
     during the 2010 State of the Union address and
       enterprises
                           promulgated by executive order.4
     	 Federal export assistance
     	 Trade missions                              Our review sought to (1) evaluate whether CS’s
   	 Commercial advocacy                           allocation of domestic resources meets its mission
   	 Increase export credit                        and goals, (2) assess CS’s level of cost recovery, and
   	 Macroeconomic rebalancing                     (3) determine the extent to which the level of
                                                    coordination between USEACs and their federal and
   	 Reducing barriers to trade
                                                    nonfederal partners is sufficient to meet
   	 Export promotion services
                                                    Administration priorities with respect to the NEI.
  Source: Export Promotion Cabinet, Report to the   For this review, we conducted interviews with
  President on the National Export Initiative: The
  Export Promotion Cabinet’s Plan for Doubling U.S. managers and staff at CS headquarters, visited 12
  Exports in Five Years (September 2010)            USEACs, interviewed network directors and local
                                                    staff to obtain their feedback on issues related to
                                                    our objectives, and reviewed CS, ITA,
Departmental, and external financial and management documentation (see appendix A for our
methodology). In addition, we sent an online survey to domestic trade specialists asking specific
questions related to our objectives and received an overall response rate of 85 percent (see
appendix D for the survey methodology).

Overall, we found the USEACs deliver a broad range of services to U.S. companies seeking to
export. Trade specialists counsel clients, attend networking events, conduct outreach, and
work with partners to deliver services that U.S. exporters need. However, we found that CS
could improve resource allocation by closing offices that are vacant, poorly located, or
producing consistently lower output relative to other offices. CS could further maximize
resources by minimizing the administrative tasks performed by specialists, as well as addressing
issues with overseas offices that negatively impact service delivery. Additionally, CS could
improve its level of cost recovery by (a) updating its cost model with current and more
accurate information and (b) resolving weaknesses with certain internal financial controls.
Finally, CS could improve collaboration and coordination with partners by providing enhanced
guidance and online training and work to resolve legal impediments to sharing client
information. By implementing our recommendations, we believe CS could realize $1.5–5 million
in funds put to better use over 2 fiscal years (see appendix C).


 


                                                            
4
    National Export Initiative, Exec. Order No. 13534, 75 Fed. Reg. 12433 (March 11, 2010).


FINAL REPORT NO. OIG-13-010-I                                                                                3
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
    I.        Commercial Service’s Allocation of Resources Is Not Optimal

       Domestic trade specialists at USEACs perform a broad range of client facing-activities, such
       as providing fee-based services, coordinating with overseas posts to ensure service delivery,
       attending trade shows, and developing marketing events to identify potential clients.
       Although the average specialist earns approximately $100,000 (excluding benefits) annually,
       a significant amount of specialists’ time is spent performing administrative tasks that prevent
       them from performing more substantive client-related services.5 Also, USEACs with
       location and performance issues consume CS’s limited resources. Finally, approximately 20
       percent of USEAC-initiated services go unfulfilled due to delivery issues at overseas posts.

       A. Administrative tasks limit trade specialists’ performance of export promotion duties

              Based on survey responses, trade specialists reported spending nearly one-third of their
              time performing administrative tasks6, which many said prevented them from performing
              client work such as outreach and services to U.S. exporters. As one trade specialist
              noted:
                      We have no one to answer the main phone line, coordinate event
                      arrangements, alleviate the administrative burden of inventory, pricing and
                      ordering supplies . . . all time killers to trade specialists that are trying to
                      focus on client development, service delivery, and solutions for their clients.
              Another trade specialist wrote: “We have so many administrative burdens, and
              someone has to do them.”
              At each USEAC, individual employees maintain the office website, recruit and process
              student interns, manage office inventory, troubleshoot IT problems, and order supplies.
              According to CS staffing information, there are only 5 remaining administrative
              assistants working at USEACs.7 Through our interviews and review of survey responses,
              we found that while some duties, such as inventory management, must be performed at
              each USEAC, others could be centralized, and many could be performed by
              administrative staff. For example, each office is responsible for its own website content,
              development, and maintenance, resulting in a trade specialist having to learn computer
              programming languages to assist with website upgrades and maintenance.
                                                            
5
  We derived this figure based on the following equation, using CS time and attendance data from 2011:
         Average salary = Total wages, divided by total hours worked, multiplied by 2,087 hours (i.e., 1 work year)
6
  Trade specialists reported spending approximately 17percent of their time on data entry and 15 percent on
administrative tasks that included ordering supplies, managing the website, hiring and training student interns, and
coordinating events.
7
  CS phased out these administrative assistant positions as part of an earlier restructuring of its domestic field
network. There is also a separate National Field Support Team, comprised of 16 field support specialists located at
USEACs nationwide exists; however, team members perform primarily financial management, not programmatic
administrative duties.


FINAL REPORT NO. OIG-13-010-I                                                                                      4
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

              While each USEAC should provide website content about its respective office and
              market, development and maintenance are functions that could be centralized, thus
              freeing up specialists to perform client services.

                 Figure 2. Frequency of Trade Specialist            In addition, data entry is another task
                  Responses on the Effectiveness of the             that could be assigned to local
                         Client Tracking System                     administrative staff if available. Trade
                                                                    specialists document their client
                                                                    interactions, communications, and
                                                                    trade leads using a custom
                                                                    application called the Client Tracking
                                                                    System (CTS). Our survey showed
                                                                    only 15 percent of trade specialists
                                                                    considered the system effective. The
                                                                    remaining 85 percent reported that it
                                                                    often freezes, fails to accept new
                                                                    data, operates slowly, and is difficult
               Source: OIG survey of CS domestic trade specialists  to use. Represented graphically
                                                                    below, trade specialists’ responses
              tended to articulate the “slow,” “cumbersome” nature of the system much more often
              than the sense that the system is “working” and in “sync” (see the trade specialists’
              responses in the word cloud presented in figure 2, above left).8 We also observed these
              problems during our site visits. Despite these issues, trade specialists must record client
              data into CTS without administrative professionals to assist them.

              Since trade specialists reported spending one-third
              of their time performing administrative tasks, we          Figure 3. Trade Specialist
              estimate they were paid nearly $10 million in FY          Wages by Reported Activity
              2011 (based on CS data) to perform tasks that                (in Millions), FY 2011 
              could be completed by lower-grade positions (see
              figure 3, right). CS informed us that it plans to hire
              interns to perform trade specialist and
              administrative duties at offices where there is a
              need. This option is more cost-effective than
              hiring higher-grade trade specialists to perform
              administrative tasks. However, an internship
              provides a potential career path to becoming a
              full-time trade specialist; therefore, the long-term
              savings anticipated by hiring interns may not be as
              great as expected, as compared to hiring
              administrative staff. Further, if interns are not          Source: OIG survey of CS domestic
              eventually hired as full-time specialists, CS would        trade specialists
              be faced with turnover of these positions every

                                                            
8
 This “word cloud” is a visual presentation of comments provided by survey respondents: the larger the word, the
more times respondents mentioned it relative to other words.


FINAL REPORT NO. OIG-13-010-I                                                                                  5
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL

              few years. According to our analysis, shifting administrative duties to lower-graded
              positions could save CS $1.5–5 million in the next 2 fiscal years without a decrease in
              efficiency. We calculated this figure by subtracting the cost of a Washington, DC-based
              GS-7’s salary and benefits total of $54,000 from the average trade specialist’s salary and
              benefits total of $131,000, yielding a “per employee” savings of $77,000.9 CS could
              increase efficiency and realize cost savings by better aligning job responsibilities with
              grade levels. 

       B. USEACs with location and performance issues consume CS’s limited resources

              Based on our analysis of CS data, there are four USEACs that, compared to others, are
              relatively low-producing: three in the same Metropolitan Statistical Areas (MSA)10 as
              other USEACs and one in an area with low export potential. We assessed office
              performance by examining services provided and export successes recorded across all
              USEACs (see appendix B for the quantitative methodology). To identify USEACs in
              areas with low export potential, we used CS’s Domestic Resource Allocation Model
              (DRAM), which assesses the export potential of MSAs. Along with other considerations
              (e.g., performance, policy needs, and coverage), the level of export potential in a
              particular MSA helps guide CS with USEAC network resource allocations. After
              assessing DRAM’s inputs and methodology, we
              found it to be a reasonable and sufficient tool            Figure 4. The Cost of
              for determining the export potential of an            Underperforming USEACs in
              area. We also found that there were several          Suboptimal    Locations, FY 2011
              higher-producing USEACs in areas with low
              export potential, where USEACs can
              nonetheless produce successes effectively.
              However, CS should consider whether to
              move those USEACs in areas with limited
              export potential performing at a comparatively
              low-output rate.

              The four lower-producing and poorly located
              USEACs cost approximately $1.1 million to
              operate in FY 2011 (see figure 4, right).11 We
              calculated this figure using time and attendance
              and office cost (i.e., rent and equipment) data             Source: OIG analysis of CS data 

                                                            
9
  We calculated the savings at USEACs with four or more trade specialists ($5 million) and six or more specialists
($1.5 million). If one-third of a trade specialist’s time is spent doing administrative work, offices with four or more
staff could absorb the loss of a trade specialist with an administrative specialist taking over the administrative tasks.
If CS could shift only 20% of the administrative work to lower-graded specialists, or if CS implements other
solutions to reduce the administrative workload, then offices with six or more staff could maintain a similar level of
work with an administrative specialist instead of a trade specialist.
10
   A Metropolitan Statistical Area (MSA) is a metropolitan area with a core urban population of at least 50,000.
Adjacent counties with a high degree of social and economic integration are included in the MSA.
11
   While we do not identify the four offices in this public report, we have provided this information to CS for its
consideration.


FINAL REPORT NO. OIG-13-010-I                                                                                           6
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

              for that fiscal year provided by CS. We believe CS could have performed more services
              and generated additional export successes if these resources had been allocated to
              more advantageous locations. Additionally, there are nine currently vacant USEACs
              located in Anchorage, Alaska; Bakersfield and Cabazon, California; Libertyville, Illinois;
              Shreveport, Louisiana; Ypsilanti, Michigan; Toledo, Ohio; Harrisburg, Pennsylvania; and
              McAllen, Texas. Closing these offices would save CS nearly $28,00012 annually in
              additional real estate costs alone.

       C. Some USEAC-initiated services that warrant a response go unfulfilled after referral to
          overseas offices

              According to our survey of domestic trade specialists, approximately 20 percent of
              client requests that warrant response by overseas offices go unfulfilled. Domestic trade
              specialists assist U.S. companies by determining the services they need while CS staff at
              overseas posts perform and deliver the service requests, ideally resulting in export
              successes. USEACs reported that overseas posts often fail to respond to service
              requests in a timely manner, incurring considerable delays. After experiencing excessive
              wait times, some companies opt to seek assistance elsewhere, resulting in unfulfilled
              services.

              CS management stated several factors             Figure 5. Fees from Unfulfilled
              contribute to these delays, including:           Requests, FYs 2009–2011
              declining overseas staff, communication
              lapses between domestic and overseas
              staff, and time spent by overseas staff
              organizing and supporting trade missions
              and official government visits. During FYs
              2009–2011, overseas posts completed
              8,699 USEAC-initiated services with an
              average fee of $756 for each service.13 If
              overseas posts had completed the number
              of unfulfilled services estimated by the
              trade specialists in our survey, CS could
              have collected an additional $1.6 million in
              fees (see figure 5, right), and clients would   Source: OIG analysis of eMenu data and
              have benefited from additional export           the survey of domestic trade specialists 
              successes. Formulating a more accurate
              estimate regarding the cost of service delivery delays must take into account the value
              and importance of Departmental and CS activities, such as trade missions and
              Secretarial visits, that take precedence over normal operations at overseas posts.
              Nonetheless, the problem regarding these service delays is significant enough that one
                                                            
12
   We calculated this figure based on the offices’ current annual lease rates and telecommunications costs
(provided by CS). 

13
   We calculated this figure by dividing the amount of fees collected ($6,579,940.90) by the number of paid services 

(8,699). 



FINAL REPORT NO. OIG-13-010-I                                                                                      7
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL

              USEAC network in FY 2012 is piloting a tool to track each service submitted to an
              overseas post. The tool will track the time that overseas posts take to respond to each
              request, whether services are accepted or declined, and the reasons behind unfulfilled
              services. If CS deems the pilot successful and expands the program to all USEACs, this
              tool would identify overseas posts where staff is unable to fulfill services, enabling CS to
              investigate the cause of the delays and, if necessary, reallocate resources to assist the
              posts causing the delays.

Recommendations

We recommend the Director General of the U.S. & Foreign Commercial Service take the
following actions:

       1.	 Develop strategies for minimizing the administrative duties of trade specialists.
       2.	 Upgrade or replace the current Client Tracking System.
       3.	 Determine why some USEACs are underperforming and take corrective action or
           explore the following options: (1) consolidate lower-producing USEACs with higher-
           producing USEACs located within the same MSA, (2) close lower-producing USEACs
           operating in MSAs with low export potential, and (3) consider closing vacant USEACs.
       4.	 Track overseas posts that are unable to deliver services in an adequate manner and use
           the pilot tracking tool to provide estimated service delivery times to clients based on
           post performance and service type.

     II.	     Commercial Service’s Cost Recovery Model and Certain Internal Financial
              Controls Have Weaknesses

       CS’s model for recovering costs through fees for
       its client services is based on outdated                In setting fees for client services,
       information, cannot accurately track the time           OMB Circular A-25 requires
       required to perform services, and does not              federal agencies to:
       account for all costs associated with providing
       those services. CS charges fees for its services 
        	 Use the best available data
       using a standard fee schedule in effect since 2008.        Update the data biennially 

       For the period FYs 2009–2011, CS received 

                                                                 	 Include all direct (e.g., salaries)
       appropriations totaling $750 million and                      and indirect costs (e.g. rent, IT,
       recovered $34 million in fees for services. In                travel, equipment)
       keeping with its mission, CS charges small- and
       medium-sized companies (i.e., having fewer than
       500 employees), which often have limited resources due to their size, less than large
       companies for the same service so as to help them export. The requirement to charge fees
       is mandated by Office of Management and Budget (OMB) Circular A-25 (A-25),14 which
       establishes federal policy regarding fees assessed for government services.

                                                            
14
     OMB Circular A-25, User Charges, July 8, 1993.


FINAL REPORT NO. OIG-13-010-I                                                                                8
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

       We could not accurately determine CS’s level of cost recovery because CS does not track
       trade specialists’ time spent on performing client services. This lack of key financial and
       workforce information has previously been identified by both our office and the
       Government Accountability Office (GAO) as an issue CS needs to address.15 We also found
       that certain internal controls on financial information were deficient. The controls in
       question involved the handling of check payments for client services and the reconciliation
       of CS’s accounts with the Department’s.

       A. CS’s fee schedule is outdated, inaccurate, and does not include all recoverable costs

              Prior OIG and GAO reports found that CS does not include all costs in its methodology
              for calculating fees, as required by OMB Circular A-25. We reviewed CS’s fee schedule,
              cost recovery model, and financial data for FYs 2009–2011 to assess the extent to which
              CS recovers the cost for the services it provides to U.S. exporters. We found
              weaknesses remain, specifically in that CS:

              Uses outdated information. CS’s current fee schedule, introduced in 2008, uses a time
              estimate based on a USEAC survey for its 2005 fee schedule adjustment.16 Its current
              $70 hourly rate is based on FY 2007 appropriations and staffing data of $229 million and
              1,566 employees, respectively. Applying that methodology using FY 2012 budget ($270
              million) and staffing (1,381 employees) data, CS’s hourly rate should have risen to $94—
              a 34 percent increase over the current hourly rate. Had CS applied that rate to its
              services, it could have recovered more money per service delivered. However, it is
              possible many U.S. companies would not purchase services at the new prices. OMB
              Circular A-25 requires biennial review, based upon best available information, to set
              fees. An in-depth analysis would help CS determine the effect of applying the revised
              hourly rate on the demand for its services.

              Does not accurately track employee time. CS does not track its trade specialists’
              time spent on performing client services. Currently, it uses only one accounting code to
              track trade specialists’ time in its online timekeeping system, as opposed to using
              multiple codes that could track time by service or task. Without accurate data on the
              amount of time trade specialists spend on particular services, CS fees may not account
              realistically for the time trade specialists require to complete their services. CS’s
              timekeeping system has the functionality to record specialists’ time in greater detail,
              tracking the amount of time specialists spend performing administrative activities, and
              thus help determine future fees.



                                                            
15
   U.S. Department of Commerce Office of Inspector General, September 29, 2004. USEACS Are Meeting Client
Needs, but Better Management Oversight Is Needed, IPE-16728. Washington, DC: Commerce OIG, 15; and U.S.
Government Accountability Office, March 4, 2009, Commerce Needs Better Information to Evaluate Its Fee-Based
Programs and Customers, GAO-09-144, Washington, DC: GAO, 15.
16
   CS calculated the hourly rate by dividing its FY 2007 budget ($229 million) by the total number of hours
incurred by a staff of 1,566 in a work year totaling 2,087 hours (approximately 3.2 million hours). It charges the
client for any third-party services, such as interpreters and equipment.


FINAL REPORT NO. OIG-13-010-I                                                                                        9
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

              In response to our draft report, CS provided additional information about a 2010–2011
              survey that will assist CS in determining user fees.17 CS employed a contractor to survey
              its offices to determine whether its fees aligned with program costs. The survey asked
              office directors to estimate the amount of time staff needed to perform discrete steps
              to complete client services. Having reviewed the survey, we identified a number of
              problems with the methodology. CS management selected a nonprobability sample of
              only 25 of 108 USEACs18 to participate in this survey and received 18 survey responses.
              Even though CS also sent the survey to 125 overseas offices,19 it only received
              responses from 54 (43 percent). Unreliable survey results may result from:
                      	 A nonprobability sampling of USEAC offices;
                      	 No measurement of the extent or direction of statistical bias caused by the
                         nonprobability sampling of USEACs or the low response rate from overseas
                         offices—as responsive offices may have systematically differed from
                         nonresponsive ones (e.g., had over- or underworked staff relative to the
                         population, staffing composition, or type of country);
                      	 No documented pretesting instrument to ensure clarity of questions and reduce
                         respondent burden; and,
                      	 No systematic, statistically sound approach to identify outliers, which the 

                         methodology stated CS removed on an ad hoc basis. 


              Despite the weaknesses found in the survey’s design, its results represent the best
              available data for CS to use to determine its user fees at this time. CS, which is
              currently reviewing the results to determine appropriate user fees, plans on using such a
              survey as part of future biennial updates of user fees. A survey conducted once every 2
              years may yield imprecise time estimates, impacting the accuracy of user fees. CS staff is
              aware of the problems and is working toward making improvements. To implement a
              methodologically sound survey, CS should address the issues identified above. In
              addition, CS should sample specific participation agreements for client services to
              validate the survey results.




                                                            
17
   The formulation of user fees takes into account and impacts both domestic and overseas operations. While the 

focus of our evaluation was on domestic operations, our analysis of the user fee methodology and our

recommendation should improve CS operations worldwide. 

18
   At the time of the survey in 2010, there were 108 USEACs. 

19
   At the time of the survey in 2010, there were 125 overseas CS offices.


FINAL REPORT NO. OIG-13-010-I                                                                                  10
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

                  Figure 6. CS Costs (in 	                 Cannot determine whether its fee schedule
                  Millions), FYs 2009–2011	                methodology includes all costs. When CS
                                                           released its current fee schedule in 2008, it
                                                           claimed nonsalary personnel costs (e.g., travel,
                                                           rent, information technology) were accounted
                                                           for in a flat-rate overhead charge of 12 percent
                                                           of salaries and benefits.20 However, GAO noted
                                                           in its March 2009 review of CS’s fee schedule
                                                           methodology that CS provided documentation
                                                           which estimated overhead at only 6.25 percent
                                                           of salaries and benefits, rather than 12 percent.
                                                           GAO also reported that CS did not document
                                                           its methodology for estimating overhead costs,
                Source: OIG analysis of CS financial data	 making it impossible to assess which costs are
                                                           accounted for and at what level. In our analysis,
              the costs for rent, information technology, and travel, and other nonsalary and benefits
              costs accounted for $308 million (41percent) of $750 million in total costs for FYs
              2009–2011 (see figure 6, above).

              Without a clearly documented methodology or sound method of measuring time spent
              on services, we could not determine how CS accounted for these costs or identify
              where it could devise additional cost recovery improvements.

       B. Certain internal controls for processing and reconciling client transactions are deficient

              Trade specialists manually enter client contact and financial information into eMenu,
              CS’s operation control system. This system automatically generates a unique code for
              each project. For a system of record for financial transactions, CS uses the
              Department’s Commerce Business System (CBS), operated by the National Institute for
              Standards and Technology (NIST). CS’s accounting staff manually assigns CBS accounting
              codes to each financial transaction with an eMenu project code. Field support specialists
              manage USEAC budgets, approve expenditures, process payments, and reconcile
              accounts between CBS and eMenu. We found several weaknesses in internal financial
              controls that, left unaddressed, would leave the agency susceptible to fraud or incorrect
              financial information. 

              Payments made by check lack proper internal controls. During FYs 2009–2011, CS
              received 19 percent of total domestic services revenue from check payments (see table
              1, below). Clients who pay by check often mail payments directly to the trade
              specialists, who then forward it to their field support specialists. This practice is not
              consistent with OMB Circular A-123 on management controls, which requires a
              segregation of duties when processing financial transactions.21 In contrast, CS allows
              clients to make secure electronic credit card payments through a link to CS’s online
                                                            
20
   OMB Circular A-76, Competition in Commercial Activities, May 29, 2003, establishes the 12 percent rate as a 

guideline to estimate overhead in a cost-absorption model.

21
   OMB Circular A-123, Management’s Responsibility for Internal Control, December 21, 2004. 



FINAL REPORT NO. OIG-13-010-I                                                                                      11
  DEPARTMENT OF COMMERCE
U.S.                                                                                   OFFICE OF INSPECTOR GENERAL

              eMenu system. Clients often pay by check for more expensive services, such as a trade
              mission22 or a Gold Key Service, and by credit card for lower cost services (e.g., market
              research, webinars, and seminars). Nonetheless, the credit card payment option
              removes the risk of fraud that could result from trade specialists collecting payments for
              services they initiate. Although we did not discover any evidence of wrongdoing,
              allowing trade specialists to handle checks exposes the USEACs to the risk of diverted
              payments. CS should take steps to maintain the separation of duties.

                                           Table 1. Client Payments to Domestic Offices
                                            by Check and Credit Card, FYs 2009–2011
                                                               Total    Checks       Credit Cards
                           Number of transactions              28,728    1,601          27,127
                           Total revenue
                                                               $9.57     $1.82             $7.75
                           (in millions)
                           Percent of total
                                                                           5.6              94.4
                           transactionsa
                           Percent of total revenuea                      19.1              80.9
                       Source: CBS data on CS financial transactions, FYs 2009–2011

                       a
                         Totals represent the combined number of transactions and amount of cumulative 

                       revenue collected via check or credit card by USEACs and network offices. 


              CS lacks official guidance on reconciling accounts. Departmental guidelines for
              managing financial data require regular, well-documented reconciliation activities subject
              to second-party review.23 We found that CS field support staff may not regularly
              reconcile accounts, such as travel, mailing services, rent, telecommunications, and
              supplies, between eMenu and CBS.24 When finding problems during reconciliation (see
              figure 7, below), the field support staff notifies the appropriate CBS staff at NIST. NIST
              staff, however, do not consistently follow up on problems or confirm corrective actions
              with CS. Additionally, reconciliation activities are currently not subject to higher-level
              review.




                                                            
22
   Trade mission payments can only be made by check; are typically larger amounts than standard services; and can
be accepted at a USEAC, overseas post, or mailed directly to CS headquarters.

23
   The U.S. Department of Commerce Cash Management Policies and Procedures Handbook (September 2011 revision) 

requires the segregation of all cash related duties; see chapter 8, section 5.0, item J.

24
   We could not assess the level of disparity between all eMenu and CBS accounts because eMenu lacks data on 

services performed without PAs. 



FINAL REPORT NO. OIG-13-010-I                                                                                  12
  DEPARTMENT OF COMMERCE
U.S.                                                                       OFFICE OF INSPECTOR GENERAL

                         Figure 7. CS Process for Reconciling Payments
                                 with eMenu and CBS Accounts




                                Source: OIG analysis of CS documentation

         CS informed us it is working with the Department to develop policies to strengthen
         internal controls. Without a specific policy prohibiting trade specialists from handling
         client payments and standardized policies requiring second-party review of account
         reconciliation activities, CS is vulnerable to payment fraud and may use inaccurate
         financial data.

Recommendations

We recommend the Director General of the U.S. & Foreign Commercial Service take the
following actions:

    5.	 Standardize the review process for the fee schedule to ensure biennial updates, as
        required by OMB Circular A-25.
    6.	 Ensure that surveys used to determine user fees are methodologically sound and sample
        participation agreements for client services to validate the survey results.
    7.	 Analyze and document the methodology for estimating overhead costs and include
        appropriate costs in the fee schedule to approximate full-cost recovery.
    8.	 Develop (a) formal policies prohibiting trade specialists from handling checks and (b)
        appropriate internal controls for check payments, consistent with those in place for
        credit card payments.
    9.	 Create official policies for account reconciliation, providing second-party review of
        reconciliation activities and guidance for corrective action.




FINAL REPORT NO. OIG-13-010-I                                                                       13
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL


 III.	        Survey Respondents Reported That CS Actions to Implement the National
              Export Initiative Have Had a Limited Effect on USEAC Collaboration with
              Partners and Guidance to Enhance Collaboration is Inadequate

       Since their establishment, a key objective of USEACs has been to enhance and expand
       federal export promotion services through cooperation and coordination with trade-related
       partners. The recently created Export Promotion Cabinet has reported that enhancing such
       collaboration is necessary to achieve the goals of the NEI, which aims to double U.S.
       exports by the end of 2014. The Export Promotion Cabinet identified four overarching
       actions to implement the NEI Executive Order,25 three of which relate to coordination. The
       cabinet also developed 68 recommendations to address the eight priorities identified in the
       NEI, seven of which specifically address the four priorities most directly related to USEAC
       operations: (1) exports by small- and medium-sized enterprises,(2) federal export
       assistance, (3) commercial advocacy, (4) export promotion of services (see appendix E). 26
       Similarly, to enhance collaboration among federal agencies, GAO has identified eight
       practices that result in joint activities that produce more value than could be produced
       when organizations act alone.27 These practices can also apply to federal collaboration with
       nonfederal entities.

       Through staff interviews and an analysis of survey results and CS data, we found that
       USEACs collaborate extensively with partners; however, CS actions to implement the NEI
       have had a limited effect on the extent and quality of that collaboration. In addition,
       specialists—less than half of whom had attended interagency training in Washington, DC,
       focused on export promotion—reported that CS management guidance on collaboration
       was lacking. Finally, we found that collaboration between CS and its partners is inhibited by
       legal restrictions on the sharing of client information, even among federal agencies.

       A.	 Trade specialists report the National Export Initiative has had a limited effect on 

           collaboration 


              Fifty-five percent of survey respondents reported the NEI had not affected their
              collaboration with partners. An additional 11 percent responded that NEI programs
              have actually made collaboration with partners more difficult. Only 34 percent stated
              that NEI activities have improved collaboration with their partners (see figure 8, below).

                                                            
25
   National Export Initiative, Exec. Order No. 13534, 75 Fed. Reg. 12433 (March 11, 2010). 

26
   See Export Promotion Cabinet, September 2010, Report to the President on the National Export Initiative: The Export 

Promotion Cabinet’s Plan for Doubling Exports in Five Years, Washington, DC: Trade Promotion Coordinating
Committee.
27
   These are: (1) define and articulate a common outcome; (2) establish mutually reinforcing or joint strategies; (3)
identify and address needs by leveraging resources; (4) agree on roles and responsibilities; (5) establish compatible
policies, procedures, and other means to operate across agency boundaries; (6) develop mechanisms to monitor,
evaluate, and report on results; (7) reinforce agency accountability for collaborative efforts through agency plans
and reports; and (8) reinforce individual accountability for collaborative efforts through performance management
systems. See GAO, October 21, 2005. Results-Oriented Government: Practices That Can Help Enhance and Sustain
Collaboration Among Federal Agencies, GAO-06-15, Washington, DC: GAO.


FINAL REPORT NO. OIG-13-010-I                                                                                        14
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

                                                               Historically, USEACs have collaborated with a
                  Figure 8. Has the NEI Changed                wide range of partners in fulfilling CS’s mission
                  Partner Collaboration?                       of promoting U.S. exports. These partners
                                                               include other ITA business units,
                                                               Departmental bureaus and federal agencies;
                                                               state and local governments; and private
                                                               sector organizations. OIG previously reported
                                                               that USEACs have developed strong
                                                               relationships with federal and nonfederal
                                                               partners, and all the USEAC Network
                                                               Directors with whom we spoke for this
                                                               review generally characterize their USEACs
                                                               collaboration with partners as both extensive
                                                               and generally effective. 28
                 Source: OIG survey of CS domestic
                 trade specialists                      Survey respondents reported that during FYs
                                                        2009–2011 they collaborated most frequently
                                             29
              with District Export Councils, state trade offices, and the Export–Import Bank of the
              United States. Their most frequent collaboration activities were (1) jointly promoting
              their respective services through client outreach, such as seminars; (2) directly referring
              clients to each other, when appropriate; and (3) sharing client contact information.

              Our review of CS “highlights” reports supports the survey respondents’ assessment that
              the NEI has not significantly affected the outcomes of USEAC collaboration with
              partners. Highlight reports summarize nonquantifiable trade activities, accomplishments,
              and outreach of USEAC staff that do not result in export successes. During FYs 2009–
              2011, the number of approved USEAC highlights that identified partners, as well as the
              numbers of partners themselves, were fairly constant (see figure 9, below). Conversely,
              the proportion of total export success attributable to USEAC-led activities and which
              credited a partner declined over the same period (see figure 10, below). With improved
              collaboration, CS should expect to see a positive change.




                                                            
28
  Commerce OIG, USEACs Are Meeting Client Needs, but Better Management Oversight Is Needed, 21.
29
  District Export Councils are comprised of local business leaders who advise local small- and medium-sized
companies with exporting and work with USEACs to help promote trade-related activities.


FINAL REPORT NO. OIG-13-010-I                                                                                 15
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


           Figure 9. USEAC Highlights,                         Figure 10. USEAC Export Successes
                  FYs 2009–2011                                   with Partners, FYs 2009–2011 




       Source: OIG analysis of Highlights data                 Source: OIG analysis of export success data



              This survey, which elicited feedback from 230 trade specialists, provided opportunities
              for descriptive narrative responses. Not every question elicited the same number of
              narrative responses. Twenty-eight percent of 134 respondents who provided narratives
              explaining their responses about the NEI’s impact on collaboration stated that the NEI
              was accompanied by no substantive change in CS policies or practices. Twenty percent
              responded that they have always collaborated with partners to identify clients and
              enhance service, thus the NEI has not affected their existing coordination with them.
              Sixteen percent of respondents stated that, while the NEI has highlighted the
              importance of exporting to companies and increased demand for export promotion
              services, the roles and responsibilities of the entities involved in export promotion
              across all government levels are poorly defined. This lack of clarity about export roles
              and responsibilities has led to competition and duplication of effort among service
              providers.

       B. Trade specialist guidance and training on enhancing collaboration is inadequate

              Our survey asked domestic trade specialists whether they had received guidance from
              CS headquarters on collaborating with partners in support of the NEI. Only 50 percent
              reported having received specific guidance; 32 percent could not recall having received
              such guidance, while 18 percent stating receiving no guidance at all. Of the 118
              respondents who provided narratives explaining their responses to this question, 24
              percent reported having received guidance about formalizing relationships with partners
              through signed agreements, and 15 percent reported receiving guidance on how to
              work with partners to implement the New Market Exporter Initiative.30

                                                            
30
  The New Market Exporter Initiative is a national marketing and data mining effort to identify U.S. exporters
currently exporting to one or two markets that are capable of expanding to additional markets. Under this


FINAL REPORT NO. OIG-13-010-I                                                                                    16
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                                  OFFICE OF INSPECTOR GENERAL

              Our survey also asked for suggestions to improve collaboration with partners. Thirteen
              percent of 189 respondents who provided suggestions said receiving additional guidance
              and training would improve their ability to work with partners, given the importance of
              the Administration’s initiative to double exports by the end of 2014. Thirteen percent of
              respondents also stated that CS should revise trade specialist performance measures to
              better promote collaboration with partners or align them more closely with those of
              partners.

              With regard to specific training, CS participates in Trade Promotion Coordinating
              Committee (TPCC) Trade Officer Training. This interagency program provides client
              management skills training and broader knowledge of the programs and resources
              available to assist U.S. firms in the international marketplace and facilitates collaboration
              and problem solving for clients across the TPCC agencies. Several trade specialists who
              attended the training described it to us as being very valuable in developing the
              knowledge and skill needed to effectively perform their jobs. However, according to
              TPCC records, less than half of trade specialists currently working at USEACs have
              attended TPCC Trade Officer Training. The TPCC’s deputy director identified
              constrained USEAC travel budgets and limited class capacity as the primary impediments
              to expanding the training; developing web-based training options available to all
              domestic trade specialists would mitigate these problems.

       C. Collaboration between USEACs and their partners is hampered by restrictions on sharing
          client information

              The Export Promotion Cabinet recommends strengthening interagency information
              sharing and coordination to implement the NEI. Trade specialists tended to support this
              recommendation: when asked for suggestions to improve collaboration, 23 percent of
              189 survey respondents provided narratives about improving information sharing among
              partners. In addition, one of the USEAC network directors with whom we spoke cited
              their inability to share relevant information about clients with partners as hindering their
              efforts to enhance collaboration and avoid duplication of effort. Further, the Trade
              Secrets Act31 generally prohibits federal employees from disclosing commercial
              confidential information. According to the Office of General Counsel’s legal
              interpretation on behalf of CS, this information cannot be disclosed without the
              permission of the submitter of such information (i.e., CS's clients). Therefore, CS must
              seek a client’s written permission to share that client’s commercial information with
              others, including other federal entities like SBA and the Export–Import Bank. One state
              trade office director who partners with a USEAC told OIG that sharing client
              information is integral to true collaboration, and that the USEAC’s inability to do so has
              hindered their relationship.

              CS currently exchanges publicly available client information with the Export–Import
              Bank on a quarterly basis. However, personal privacy information about individuals is
                                                                                                                                                                                                
program, ITA collaborates with shipping, finance, and other U.S. companies to identify its customers who already 

sell to an international market and direct them to Department trade specialists.

31
   18 U.S.C. § 1905. 



FINAL REPORT NO. OIG-13-010-I                                                                                                                                                              17
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

              not provided by either agency, nor is any information protected by law (e.g., the Trade
              Secrets Act). At the request of state recipients of STEP grants,32 CS also is exploring
              ways to provide information on client services funded by the program.

Recommendations

We recommend the Director General of the U.S. & Foreign Commercial Service take the
following actions:

       10. Determine why guidance on collaboration is not effectively communicated to trade
           specialists working in the field and take corrective action.
       11. Develop guidance on how to incorporate GAO practices for enhancing collaboration to
           structure partnerships to add value in achieving the USEACs’ mission.
       12. Develop and provide training to USEAC and partner staff on collaboration strategies
           and techniques.
       13. As chair of the TPCC, request expanded TPCC Trade Officer Training with a web-
           based alternative that is available to all domestic trade specialists.
       14. Explore the possibility of requiring CS clients to waive confidentiality, in whole or in
           part, as a condition for receiving services.
                                                           




                                                            
32
  The State Trade and Export Promotion (STEP) program is a 3-year pilot trade and export initiative authorized
by the Small Business Jobs Act of 2010, Pub. L. No. 111-240. Funded by federal grants and matching funds from the
states, the STEP program is designed to help increase the number of small businesses exporting and to raise the
value of exports for those small businesses currently exporting.


FINAL REPORT NO. OIG-13-010-I                                                                                  18
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
On October 19, 2012, we received CS’s formal comments to our draft report, which we
include as appendix F of this report. Separately, the agency provided technical comments that
we addressed in the report where appropriate. We had subsequent communications with CS
officials to resolve issues stated in their written response summarized below.

Finding I, recommendation 1: Develop strategies for minimizing the administrative duties of
trade specialists. Agency concurred with our recommendation, but is uncertain about the resultant cost
savings.

CS agreed with our recommendation to develop strategies to minimize trade specialists’
administrative duties but disagreed with our estimates of cost savings. (see finding 1, section A).
CS stated that (a) trade specialists can efficiently perform certain administrative duties and (b)
the anticipated upgrade or replacement of its customer relationship management system could
reduce time spent on administrative tasks, making administrative positions unnecessary.
However, the majority of domestic trade specialists we surveyed reported administrative duties
taking up a significant amount of time and detracting from their client-facing duties. We
continue to believe that this warrants management attention. Finally, CS also stated website
management throughout the federal government is handled by staff above the GS-7 level. We
agree that any question of position classification would best be answered by management.

The examples in this report illustrate how cost savings can be realized by adjusting the duties of
trade specialists. The monetary benefit value in our model represents a low estimate of
achievable cost-savings over 2 years. CS states it is currently uncertain about cost savings that
could result from strategies for minimizing administrative burdens, which are under
development. We look forward to its proposed approach to decrease trade specialist
administrative burdens and the estimate of cost savings, both of which are part of their action
plan which is due within 60 calendar days.

Finding I, recommendation 2: Upgrade or replace the current Client Tracking System.
Agency concurred.

CS is in the process of developing a new Customer Relationship Management system to replace
the Client Tracking System.

Finding I, recommendation 3: Determine why some USEACs are underperforming and
take corrective action or explore the following options: (1) consolidate lower-producing
USEACs with higher-producing USEACs located within the same MSA, (2) close lower-
producing USEACs operating in MSAs with low export potential, and (3) consider closing
vacant USEACs. Agency concurred.




FINAL REPORT NO. OIG-13-010-I                                                                       19
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

CS agreed that savings could be achieved by eliminating vacant offices and will consider
objective criteria, including the resource allocation model (DRAM) and performance metrics,
for future office resource allocation efforts.

Finding I, recommendation 4: Track overseas posts that are unable to deliver services in an
adequate manner and use the pilot tracking tool to provide estimated service delivery times to
clients based on post performance and service type. Agency concurred.

Finding II, recommendation 5: Standardize the review process for the fee schedule to
ensure biennial updates, as required by OMB Circular A-25. Agency concurred.

Finding II, recommendation 6: Ensure that surveys used to determine user fees are
methodologically sound and sample participation agreements for client services to validate the
survey results. Agency concurred with revised recommendation.

Our initial recommendation proposed that CS trade specialists to track the time they spent
performing client services, by type of service, using existing online timekeeping functionality. CS
considered this requirement to be an increased administrative burden on staff that would
require implementation in both domestic and overseas offices. CS maintained it was better to
measure the average time spent on client services and calculate cost recovery fees through a
survey that accounted for discrete process steps, which we found problematic.

Although a survey could be a viable alternative to biweekly timekeeping, we identified a number
of weaknesses that may not produce precise time estimates—all of which would still result in
inaccurate user fees. Therefore, we modified this section of the report to discuss the survey
and revised recommendation 6, to prompt CS to take corrective action to ensure surveys used
to determine user fees are (a) methodologically sound and (b) validated by a statistical review
of time spent on specific participation agreements for client services.

Finding II, recommendation 7: Analyze and document the methodology for estimating
overhead costs and include appropriate costs in the fee schedule to approximate full-cost
recovery. Agency concurred.

Finding II, recommendation 8: Develop (a) formal policies prohibiting trade specialists from
handling checks and (b) appropriate internal controls for check payments, consistent with those
in place for credit card payments. Agency concurred. 

Finding II, recommendation 9: Create official policies for account reconciliation, providing
second-party review of reconciliation activities and guidance for corrective action. Agency
concurred.

Finding III, recommendation 10: Determine why guidance on collaboration is not
effectively communicated to trade specialists working in the field and take corrective action.
Agency concurred.

CS stated that a recent Export Promotion Cabinet report established a national protocol for
client services to improve coordination among agencies.



FINAL REPORT NO. OIG-13-010-I                                                                    20
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

Finding III, recommendation 11: Develop guidance on how to incorporate GAO practices
for enhancing collaboration to structure partnerships to add value in achieving the USEACs’
mission. Agency concurred.

CS stated that, in FY 2012, more than 100 memoranda of understanding were signed with its
partners to work together more closely.

Finding III, recommendation 12: Develop and provide training to USEAC and partner staff
on collaboration strategies and techniques. Agency concurred.

Finding III, recommendation 13: As chair of the TPCC, request expanded TPCC Trade
Officer Training with a web-based alternative that is available to all domestic trade specialists.
Agency concurred.

The agency hopes to fund training for 30 field-based trade specialists in FY 2013 and agreed to
explore web-based training options.

Finding III, recommendation 14: Explore the possibility of requiring CS clients to waive
confidentiality, in whole or in part, as a condition for receiving services. Agency concurred. 


 




FINAL REPORT NO. OIG-13-010-I                                                                        21
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
To conduct this review, we sought to (1) evaluate whether CS’s allocation of domestic
resources meets its mission and goals, (2) assess CS’s level of cost recovery, and (3) determine
the extent to which the level of coordination between USEACs and their federal and
nonfederal partners is sufficient to meet Administration priorities with respect to the NEI.

Our methodology included interviewing senior CS managers and staff, as well as reviewing
documentation related to our objectives, for the period FYs 2009–2011 (unless otherwise
noted). Specifically, we:

    	 Interviewed CS headquarters officials to discuss
       issues involving domestic resources, cost                     OIG Site Visits
       recovery, and the coordination of trade                        to U.S. Export
       promotion functions.                                        Assistance   Centers,
                                                                  February–April 2012
    	 Interviewed OMB officials to gain an
       understanding of CS’s cost recovery efforts.            Atlanta
                                                               Arlington, Virginia
    	 Interviewed CS’s partners at the federal, state,
                                                               Austin, Texas
       and local levels to assess the level of coordination
                                                               Baltimore
       and collaboration on trade promotion activities.
                                                               Denver
    	 Interviewed all eight USEAC network directors.          Detroit
    	 Conducted site visits to select USEACs (see box         Houston
       at right) in four of the eight networks to meet         Philadelphia
       with trade specialists to discuss and observe local     Pontiac, Michigan
       operations.                                             Richmond
    	 Conducted an online survey of domestic trade            San Antonio
       specialists to solicit their feedback on domestic       Trenton
       CS operations.
    	 Reviewed Administration and Commercial Service trade promotion initiatives.
    	 Reviewed policies, procedures, and guidelines, related to USEAC operations.
    	 Reviewed CS’s domestic resource allocation model and USEAC performance data.
    	 Reviewed relevant federal government criteria and requirements for full cost recovery
       of specialized services.
    	 Reviewed CS’s fee schedule on client services and assessed the amounts collected to
       determine the extent of cost recovery efforts. 




FINAL REPORT NO. OIG-13-010-I                                                                  22
  DEPARTMENT OF COMMERCE
U.S.                                                             OFFICE OF INSPECTOR GENERAL

We conducted this review from November 2011 through May 2012, under the authorities of 

the Inspector General Act of 1978, as amended, and Departmental Organization Order 10-13, 

dated August 31, 2006, as amended. The review was conducted in accordance with the Quality 

Standards for Inspection and Evaluation (January 2011) as published by the Council of the 

Inspectors General on Integrity and Efficiency. 



 




FINAL REPORT NO. OIG-13-010-I                                                             23
  DEPARTMENT OF COMMERCE
U.S.                                                                       OFFICE OF INSPECTOR GENERAL


Appendix B: Quantitative Methodology 

Our review sought to evaluate whether CS's allocation of domestic resources meets its mission
and goals. We reviewed individual USEAC performance to assess whether CS could reallocate
resources from lower-producing offices to more productive areas. To accomplish this, we used
four sources of data (three of which spanned the period FYs 2009–2011):
       	 eMenu services data
       	 eMenu export success data
       	 Time and Attendance data
       	 Domestic Resource Allocation Model (DRAM) data (completed in 2011)

The eMenu services data contain one observation for each participation agreement, including
active, completed, and canceled services. To conduct our analysis, we first aggregated all paid
active and completed services at the USEAC level to determine the total number of services
provided and the total amount of fees collected by each USEAC.

Because the eMenu export success data also contains one observation for each export success,
we then aggregated all export successes for each USEAC to obtain the total number of export
successes and the dollar value of those export successes. Time and attendance data contains
one observation for each employee pay period and includes information on salary, benefits, and
the number of hours worked by each domestic trade specialist. Therefore, we aggregated all
salary, benefits, and hours worked data from each USEAC.

The DRAM contains one observation for each Metropolitan Statistical Area (MSA) in the
United States and estimates each MSA’s export potential. We transformed the dataset into one
observation for each USEAC, retaining the MSA ranking and export potential for each
USEAC.33

Once the four datasets had a parallel structure (i.e., one observation for each USEAC), we
merged them into a single database and developed the following performance metrics and
export potential criteria.

Our performance metrics were:
       	 OIG Metric 1: USEAC services per hour (number of services divided by the total
          hours worked by trade specialists for each USEAC).
       	 OIG Metric 2: USEAC fee collection per hour (sum of fees collected for services
          divided by the total hours worked by trade specialists for each USEAC).




                                                            
33
 For example, the Los Angeles and New York metropolitan areas count as two MSAs but are served by 3 and 5
USEACs, respectively.


FINAL REPORT NO. OIG-13-010-I                                                                               24
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

       	 OIG Metric 3: USEAC export successes per hour (number of export successes 

          divided by the total hours worked by trade specialists for each USEAC).

       	 OIG Metric 4: USEAC export success value per hour (total export success value
          divided by the number of hours worked by trade specialists for each USEAC).

Our export potential criteria were:

       	 Criteria 1: USEAC is in the same MSA as another USEAC.
       	 Criteria 2: USEAC is in an MSA that ranks in the bottom half of MSAs in the United
          States in terms of export potential, according to the DRAM.

We used 3 years of trade specialist data by USEAC, rather than 1 year, to better evaluate
USEAC performance based on our 4 metrics.34 If a USEAC underproduces in terms of providing
services and generating export successes over 3 years, it does not necessarily mean that the
individual trade specialists are also underproducing. Still, it does indicate that the USEAC is
contributing significantly less than other offices. We converted all values to hourly rates to
avoid biasing the results against USEACs with fewer employees, more part-time employees, or
employees who left the organization during the three-year period.

Additionally, trade specialists perform other duties besides client services: they refer clients to
other federal agencies that can assist them with business development, provide general advice
without charge, and help companies locate data online. However, alternative measures of
performance are either unreliable (e.g., data self-reported by USEACs) or unquantifiable.
Offices with consistently low rates of both export successes and services provided over 3 years
would need to provide considerably more nonquantifiable services than other offices to make
up for those deficiencies. Again, individual trade specialists are not necessarily low-producing;
rather, some USEACs could be located in areas with low export potential or that are served by
other USEACs.

Therefore, we combined performance metrics (services and export successes) with criteria
about office location, such as multiple USEACs in the same MSA and USEACs in MSAs with
low-export potential, to identify opportunities for cost savings. All four OIG metrics were
“right-skewed,” meaning high performers raised the mean substantially above the median.
Therefore, we used medians and quartiles to evaluate dispersion to ensure low-performing
offices were not penalized for the strong performance of a few offices. To be considered
underperforming, offices had to be in or near the bottom 25th percentile of at least 3 of the 4
OIG metrics. We then identified underperforming USEACs that were located in MSAs with low
export potential or in MSAs with multiple USEACS. We do not identify the four offices in this
public report but have provided this information to CS for its consideration.


                                                            
34
   Measuring a trade specialist’s performance based on 1 year’s worth of data for export successes and completed
client services may not be representative of long-term performance. For example, a trade specialist may deliver an
outstanding service for a client who ends up not making a sale, resulting in no export success for the specialist. By
contrast, a specialist may arrange a single meeting for a client that leads to an export success with a high dollar
value that exceeds the value of all export successes from the previous year.


FINAL REPORT NO. OIG-13-010-I                                                                                      25
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL


Appendix C: Monetary Benefits 

                                                                 Unsupported
                                        Questioned                                          Funds Put to
                                                                  Costs and
                                          Costs                                              Better Use
                                                                  Write-offs
 Centralize administrative
 duties where possible and
 better align job
                                               $0                        $0                   $1,500,000a
 responsibilities with grade
 level. (see Section IA,
 pages 5–6)
 Close vacant USEACs
                                               $0                        $0                     $28,000
 (see Section IB, pages 6–7)
Source: OIG analysis
a
  CS agreed to develop strategies to minimize trade specialists’ administrative duties but was uncertain about
achievable cost savings. The $1.5 million estimated savings were based on a conservative data model that OIG
used. However, we look forward to CS’s cost estimates based on its proposed approach to decrease trade
specialist administrative burdens, both of which are part of the action plan due within 60 calendar days.




FINAL REPORT NO. OIG-13-010-I                                                                                    26
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


Appendix D: Survey Methodology
To complete our review, we conducted an online survey of all CS domestic trade specialists,
which included network directors, USEAC directors, career trade specialists, and commercial
officers on domestic rotations. We asked questions related to our three objectives: resource
allocation, cost recovery, and coordination/collaboration with partners. Overall, we achieved a
response rate of 85 percent (see table D-1, below).

              Table D-1. Trade Specialist Survey Response Rate by Network
                                                                              Response
                          Network          Responses       Population
                                                                              Rate (%)
                          Great Lakes           23               32              72
                          Mid-Atlantic          39               42              93
                          Midwest               29               32              91
                          Northeast             24               30              80
                          Pacific North         30               34              88
                          Pacific South         29               34              85
                          Southern              25               34              74
                          Southwest             31               34              91
                                  Totals       230              272              85
                        Source: OIG survey of CS domestic trade specialists

Of the specialists who did not reply, many were on leave or on assignment, suggesting that
much of the nonresponse is random. Additionally, there were no underrepresented strata:
comparing regional response rates and trade specialist with commercial officer response rates
show no evidence of nonresponse bias. Specialists, over half of whom have more than 10 years’
experience with CS (see figure D-1), were required to answer each question to submit their
responses.

To refine the survey instrument, we conducted four rounds of                        Figure D-1. Survey
interviews during February and March, 2012 in Arlington,                          Respondent Years with
Virginia; Baltimore; Philadelphia; and Trenton. After each                         Commercial Service
series of interviews, we modified the questionnaire to target
the most relevant information and reduce question bias.
Additionally, we provided a copy of the questionnaire to CS
management on March 13, 2012, to ensure that our questions
were not misleading or off-topic. We sent the survey to all
domestic trade specialists via SurveyMonkey on March 16,
2012, and closed it on April 6, 2012, allowing them 3 weeks to
complete the questionnaire. The list of survey questions is
included below:

                                                                               Source: OIG survey of CS domestic
                                                                               trade specialists 




FINAL REPORT NO. OIG-13-010-I                                                                                 27
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

Survey Questions

    1.	 Name
    2.	 Title
    3.	 USEAC Location
    4.	 USEAC Region
    5.	 Years of CS Experience
    6.	 Email
    7.	 Phone
    8.	 Please identify the industries for which you are currently responsible.
    9.	 For FYs 2009–2011, please estimate the percentage of your time spent performing the
        following tasks.
    10. From the following list, please identity the administrative tasks that you performed at
        your USEAC from FY2009–2011.
    11. Please estimate the percentage of your clients located within 50 miles of your USEAC.
    12. On average, how many active clients do you work with simultaneously (e.g., at least one
        registered counseling session in CTS or open PA)?
    13. What percentage of your clients' service requests are unfulfilled because of issues at
        overseas posts?
    14. Please describe any problems related to fulfilling client service requests.
    15. Where do you meet with your clients? Please provide the percentage for each location.
    16. Please assess the efficiency and effectiveness of the following systems: eMenu.
    17. Please assess the efficiency and effectiveness of the following systems: Client Tracking
        System (CTS).
    18. Please describe any issues with the systems:
    19. Are your clients satisfied with the CS fee schedule?
    20. Are CS services appropriately priced for small and medium-sized businesses?
    21. If CS fees were raised, would you lose potential clients?
    22. Have you lost business to other organizations that provide similar services to CS due to
        cost, scheduling/timing of service delivery, or for some other reason?
    23. How do you verify whether a company is a small to medium sized business or a large
        company?
    24. How do you verify that a client's product satisfies the US content requirement?
    25. Rate the extent to which you collaborated/coordinated in export promotion activities
        with the following non-CS entities from FYs 2009–2011 (list of entities provided).
    26. How often did your collaboration with the following partners result in export successes
        in FYs 2009–2011 (uses the same list as the previous question)?
    27. Please identify the non-CS partner that contributed to the greatest number of your
        export successes from FYs 2009–2011.




FINAL REPORT NO. OIG-13-010-I                                                                 28
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

    28. From the following list, please identify your collaboration/coordination activities with
        the entities you identified.
    29. Has the NEI changed your coordination/collaboration efforts?
    30. Have you received any specific guidance from CS HQ management relating to
        collaboration/coordination with non-CS partners in support of the NEI?
    31. Do you routinely record coordination/collaboration activities with non-CS entities in
        CTS?
    32. Do you routinely record or track referrals to other federal agencies, such as SBA or
        Ex–Im Bank?
    33. Please provide any suggestions for improving CS coordination/collaboration with US
        government and non-US government entities.
    34. Please provide any suggestions for improving the operation of the USEACs.




FINAL REPORT NO. OIG-13-010-I                                                                      29
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL


Appendix E: Export Promotion Cabinet
Recommendations Related to Collaboration
The Export Promotion Cabinet (EPC) has identified three overarching coordination-related
actions to implement the National Export Initiative Executive Order35 and developed seven
specific recommendations to address the four priority areas most directly related to USEAC
operations: (1) exports by small- and medium-sized enterprises, (2) federal export assistance,
(3) commercial advocacy, and (4) export promotion of services. Quoted verbatim from EPC,
below, are only those priorities—and only those corresponding specific recommendations—
most directly related to USEAC operations.36

       Priority: Exports by Small and Medium-Sized Enterprises (SMEs)

              Identify SMEs that can begin or expand exporting

                      Coordinate, expand, and leverage Federal outreach resources to identify
                      potential exporters. These resources include the interagency U.S. Export
                      Assistance Centers (USEACs); field offices of the SBA, Commerce, and Agriculture;
                      State and local governments; and non-government partners that provide services to
                      SMEs. International trade specialists from Commerce, Agriculture, and SBA will team
                      up with business assistance agencies to form local “Export Outreach Teams.”

                      Increase collaboration with the private sector, including businesses, trade
                      associations, lenders, District Export Council members, and local chambers of
                      commerce, to identify both new SME exporters and those with export expansion
                      potential. It is in the interest of these private sector partners to link their clients and
                      members to Government resources that can help them enter and/or grow in
                      international markets.

              Connect SMEs to export opportunities

                      Develop export assistance packages that effectively combine the programs of
                      different agencies. For example, fees for Commerce’s Gold Key Service or
                      participation in trade missions could be paid for with an SBA Export Express loan.
                      Or, an SME could receive a discounted Ex-Im Bank credit insurance policy in
                      connection with an SBA Export Working Capital Program loan.




                                                            
35
  National Export Initiative, Exec. Order No. 13534, 75 Fed. Reg. 12433 (March 11, 2010). 

36
  A full list of the priorities and recommendations can be found in “[Section] II: Recommendations” of the report. 

Export Promotion Cabinet, September 2010. Report to the President on the National Export Initiative: The Export 

Promotion Cabinet’s Plan for Doubling U.S. Exports in Five Years [Online]. www.whitehouse.gov/the-press-
office/2010/09/16/white-house-releases-report-president-national-export-initiative (accessed on July 24, 2012).



FINAL REPORT NO. OIG-13-010-I                                                                                     30
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

    Priority: Federal Export Assistance

         Short-term Recommendations:

             Emphasize the New Market Exporter Initiative. This program is a national
             marketing, data mining, and lead generation effort to identify U.S. exporters
             currently exporting to one or two markets, but capable of expanding into additional
             markets. The New Market Exporter Initiative enhances partnerships with shipping,
             finance, and other U.S. companies that specialize in providing exporting services.
             These companies, including but not limited to FedEx, UPS, and the U.S. Postal
             Service, identify their customers, many of whom are SMEs, who already sell to an
             international market and direct them to local Commerce trade specialists. The
             Commerce trade specialists work with these SMEs to help them enter additional
             international markets. This effort includes mining internal TPCC partner client
             databases to identify businesses with potential for entering new markets

         Long-term Recommendations:

             Increase coordination with State export promotion programs and
             nonprofit associations. State governors, the National Association of State
             Departments of Agriculture, State Regional Trade Groups, and the State
             International Development Organization are key players in this country’s trade
             promotion efforts. Most States have offices devoted to export promotion for in-
             State companies, and many governors lead at least one trade mission a year. At the
             local level, the States work very closely with their Federal Government partners. In
             many States, the offices of the State and Federal export promotion agencies are co-
             located and work together to develop annual operating plans. Federal agencies
             should strive to make joint planning the standard procedure in all States that have
             export promotion programs. The Administration’s proposed FY11 Budget would
             also provide increased funding for the Market Development Cooperator Program
             (MDCP). The MDCP grant program provides matching funds for public-private
             partnerships that expand export opportunities for U.S. businesses. The
             Administration has also requested an increase in funding to expand Agriculture’s
             activities to promote exports of U.S. food and agricultural products.

    Priority: Commercial Advocacy

         Short-Term Recommendations

             Enhance interagency coordination. Commercial advocacy can be enhanced by
             better coordinating the resources of the Federal Government. The Advocacy
             Center must continue to bring all key resources to bear on specific export
             transactions to enhance opportunities for success. This means rapidly directing U.S.
             exporters to appropriate agencies that can assist them with export opportunities
             and address potential vulnerability to foreign regulatory and trade actions. TPCC
             agencies will coordinate their leadership’s efforts to provide advocacy on behalf of
             U.S. exporters. The Secretary of Commerce, at the urging of the President, has


FINAL REPORT NO. OIG-13-010-I                                                                   31
  DEPARTMENT OF COMMERCE
U.S.                                                                        OFFICE OF INSPECTOR GENERAL

             requested that senior Government officials consider commercial issues as part of
             their agenda when communicating with their foreign government counterparts. As
             noted by the Michigan District Export Council-West in comments submitted in
             response to the NEI Federal Register notice:
                  Attention from the President and relevant cabinet-level agencies on aggressively
                  expanding exports will show the world that we plan to compete. Our
                  competitors’ longstanding commitment to trade advocacy begins at the highest
                  levels of government.

             This can only occur productively with improved interagency communication.
             Interagency cooperation on advocacy can be especially effective for SMEs. SMEs
             benefit when the full range of Federal government services are coordinated to
             enhance their ability to export. Obtaining a key overseas contact through advocacy
             can have a huge impact. The Department of State’s Commercial and Business Affairs
             Office is working to enhance communication between the State Department and
             TPCC agencies to ensure that Ambassadors, U.S. officials, and senior leadership at
             all levels can engage on specific export opportunities. Since January 2010, this overall
             effort has led to increased activity for the Advocacy Center, and to an increase in
             advocacy successes that support U.S. jobs.

    Priority: Export Promotion of Services

         Short-Term Recommendations

             Continue to assess and focus on key growth priority sectors and markets to better
             coordinate export promotion efforts aimed at the services sector. The TPCC
             agencies will continue to work closely with industry and key stakeholders to identify
             and assess the services sectors which hold significant growth potential for the
             United States, and match those sectors with growing sales opportunities in key
             overseas markets. In concert, the TPCC agencies will heighten focus on U.S. service
             exports by deploying the full range of trade promotion tools, including targeted
             trade missions (see Priority 3 [“Trade Missions”]), bringing foreign buyers to the
             United States, and participating in services-oriented trade shows.




FINAL REPORT NO. OIG-13-010-I                                                                        32
  DEPARTMENT OF COMMERCE
U.S.                                                                                      OFFICE OF INSPECTOR GENERAL



Appendix F: Agency Response 

                                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                                         International Trade Administration
                                                                        WoohlngiX>" O.C 20230




                                                                                          OCT 1 8 2012
            MEMORANDUM FOR:               Ron Prevost
                                          Assistant Inspector General for Economic and
                                           Statistical Program Assessment
                                          Office of the Inspector General

            FROM:                         Antwaun Griffin
                                          Deputy Assistant Secretary
                                          Office of Domestic Operations
                                          U.S. and Foreign CommercialS rvice

            SUBJECT:                      Response to Draft Report: U.S. Export Assistance Centers Could
                                           Improve Their Delivery ofClient Services and Cost Recovery
                                           Efforts, September 7, 2012

            The U.S. and Foreign Commercial Service (CS) welcomes the September 7, 2012, Office of
            Inspector General's (OIG) draft repon, U.S. Export Assistance Centers Could Improve Their
            Delivery ofClient Services and Cost Recovery Efforts. The report focuses on three areas: I)
            CS's allocation of domestic resources; 2) CS's level of cost recovery; and 3) coordination levels
            between CS domestic offices, or U.S. Export Assistance Centers (USEAC), and federal and
            nonfederal partners under the National Export Initiative (NEI). The draft report includes 14
            recommendations for CS action. We appreciate the thorough and thoughtful review of these
            issues. While we generally agree with the fmdings and conclusions, we do have some concerns
            as noted herein.

            Regarding the allocation of domestic resources, we agree in concept with the recommendation to
            develop strategies for minimizing the administrative duties of trade specialists. However, we
            respectfully disagree with the specific proposals and conclusion. We contend that trade
            specialists most efficiently and effectively perform certain administrative burdens. This includes
            the bulk of the client management responsibilities associated with entering data, obtained from
            client interaction, into the Customer Relationship Martagement (CRM) system. Furthennore,
            given the anticipated upgrade or replacement to the CRM system in the near future, any
            estimated cost savings from shifting such administrative duties are uncertain. Additionally, we
            disagree that the centralizing of domestic field office website management duties would result in
            any cost savings; throughout the government, such services are performed by persollllel at grades
            higher than GS-7.

            For recommendation 3, consolidating lower-producing USEACs and closing domestic offices,
            CS currently employs a Domestic Resource Allocation Model and a Gap and Opportunity
            Analysis to assist in allocating domestic field resources. These models provide indicators of
            export intensiveness at the Metropolitan Statistical Area level, as well as indicators for demand
            and performance at the USEAC level, respectively. CS will take this 010 recommendation into
            consideration when utilizing these resource allocation models for taking appropriate action.      (~'\


                                                                                                              .'-Y
                                                                                                              T
                                                                                                               ...........
                                                                                                                a   A0 I
                                                                                                                          ,
                                                                                                              ····••It•••·•·

 


FINAL REPORT NO. OIG-13-010-I                                                                                                  33
  DEPARTMENT OF COMMERCE
U.S.                                                                                       OFFICE OF INSPECTOR GENERAL


             In reference to recommendation 6, you propose that CS require staff to use existing online
             timekeeping functionality to account for employee time spent on client services. While such
             information could assist in determining the level of cost recovery, we are concerned about the
             increased administrative burden that such a system would necessarily place on CS personnel
             worldwide. Additionally, the May 2011 independent study by Paradigm Technologies Inc.,
             titled, Fee-Based Export Promotion Program Pricing, Financial and Operational Management
             Review Support has documented that statistically sound time tracking metrics on client services
             can be obtained via a survey, which is less administratively burdensome on CS personnel overall
             than having all CS personnel fully utilize online timekeeping.

             The NEI remains the top priority for the Commercial Service, and we are committed to helping
             realize President Obama's goal of doubling exports from 2010 levels by the end of2014. As
             citied in the report, the Export Promotion Cabinet has reported that enhancing cooperation and
             coordination with trade-related partners is necessary to achieve the goals of the National Export
             Initiative. To this end, in fiscal year 2012, CS signed over I 00 Memoranda of Understanding
             (MOU) with private and public-sector partners across the country. These MOUs commits us and
             our partners, in specifically defined areas, to work together more closely. These partnerships are
             furthering export awareness through outreach activities and leading to better coordination and
             collaboration in the provision of export assistance services.

             Additionally, the Export Promotion Cabinet's recent report titled, Maximizing the Effictiveness of
             Federal Programs that Support Trade and Investment, informs that Federal trade promotion
             agencies will (among other objectives) establish a national protocol for client services that will
             optimize how clients are served across Federal networks and increase the level of coordination
             among Federal agency and partners by including a clear process for referring clients to the
             correct Federal export assistance services.

             The OIG report also recommends that CS " ... request expanded [Trade Promotion Coordinating
             Committee] Trade Officer Training with a web-based alternative that is available to domestic
             trade specialists." Since 2003, 120 of our 240 domestic trade specialists have attended the Trade
             Promotion Coordinating Committee (TPCC) training in Washington, D.C. We hope to have the
             funds in FY 2013 to train an additional 30 field-based trade specialists and to explore web-based
             training alternatives.

             We appreciate the continued opportunity to engage with OIG on these important findings and
             recommendations. We look forward to the fmal report.




011200000133 





FINAL REPORT NO. OIG-13-010-I                                                                                      34
